No. 19-547
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL., PETITIONERS
v.
SIERRA CLUB, INC.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the REPLY BRIEF FOR THE PETITIONERS, via email and first-class mail, postage
prepaid, this 26th day of August, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5989 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on August 26, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 26, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-0547
UNITED STATES FISH AND WILDLIFE SERVICE,
ET AL.
SIERRA CLUB, INC.

BRUCE D. BROWN
THE REPORTERS COMMITTEE FOR FREEDOM
OF THE PRESS
1156 15TH STREET, NW
SUITE 1250
WASHINGTON , DC 20005
202-795-9300
BBROWN@RCFP.ORG
202-795-9310(Fax)
LAWSON E. FITE
AMERICAN FOREST RESOURCE COUNCIL
700 N.E. MAULTNOMAH
SUITE 320
PORTLAND, OR 97232
503-222-9505
LFITE@AMFOREST.ORG
503-222-3255(Fax)
ERIC R. GLITZENSTEIN
CENTER FOR BIOLOGICAL DIVERSITY
1411 K STREET, NW
SUITE 1300
WASHINGTON, DC 20005
202-849-8401
EGLITZENSTEIN@BIOLOGICALDIVERSITY.O
RG

SHAUN A. GOHO
HARVARD LAW SCHOOL
6 EVERETT STREET
SUITE 4119
CAMBRIDGE, MA 02138
617-496-2058
SGOHO@LAW.HARVARD.EDU
MEGAN IORIO
APPELLATE ADVOCACY COUNSEL
ELECTRONIC PRIVACY INFORMATION
CENTER
1519 NEW HAMPSHIRE AVE
WASHINGTON, DC 20036
202-483-1140
IORIO@EPIC.ORG
202-483-1248(Fax)
BRETT MAX KAUFMAN
SENIOR STAFF ATTORNEY
ACLU CENTER FOR DEMOCRACY
125 BROAD STREET-18TH FLOOR
NEW YORK, NY 10004
212-549-2603
BKAUFMAN@ACLU.ORG
SANJAY NARAYAN
SIERRA CLUB ENVIRONMENTAL LAW
PROGRAM
2101 WEBSTER STREET
SUITE 1300
OAKLAND, CA 94612
415-977-5769
SANJAY.NARAYAN@SIERRACLUB.ORG

GUNITA SINGH
REPORTERS COMMITTE FOR FREEDOM OF
THE PRESS
1156 15TH STREET NW
SUITE 1020
WASHINGTON, DC 20005
202-795-9300
GSINGH@RCFP.ORG

